HHS/OIG - Audit - "Review of New York's Participation in Title IV-B, Subpart 2 of the Social Security Act, Promoting Safe and Stable Families,"(A-12-01-00010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New York's Participation in Title IV-B, Subpart 2 of the Social
Security Act, Promoting Safe and Stable Families," (A-12-01-00010)
August 13, 2001
Complete
Text of Report is available in PDF format (475 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of New York's Participation
in Title IV-B, Subpart 2 of the Social Security Act, Promoting Safe and Stable
Families in Fiscal Years (FY) 1994 through 2001.  The objectives of our
review were to determine:   (1) the reasons why New York officials did
not use all Federal funds available to them during part of this time period,
and (2) if New York met its cost sharing requirements during the years it participated
in the program.  While New York participated in Title IV-B, Subpart 2 in
Federal FYs 1994 through 1996, New York did not use $167,089 of its FY 1994
grant award.  According to New York officials, one of the 58 counties in
the State did not use its allotment of Title IV-B, Subpart 2 funds.   Further,
New York met its required 25 percent State cost match in FYs 1995 and 1996 even
though its (initial) expenditure report did not indicate that it did.